 

PHIL WEISER RALPH L. CARR

Attorney General COLORADO JUDICIAL CENTER
NATALIE HANLON LEH 1300 Broadway, 10th Floor
Chief Deputy Attorney General Denver, Colorado 80203
JUNE TAYLOR Phone (720) 508-6000

Chief Operating Officer —

ERIC R. OLSON STATE OF COLORADO

Solicitor General DEPARTMENT OF LAW

July 25, 2019

Scott S. Harris

Clerk of the Court

United States Supreme Court
1 First Street, NE
Washington, D.C. 20543

RE: James Joseph Garner, 19-75 — Motion under Supreme Court Rule 30.4
to Extend the Time to File a Brief in Opposition

Dear Mr. Harris:

This office represents the State of Colorado in the above-captioned case. Consistent
with Supreme Court Rule 15, the Court’s docket indicates that the initial deadline for
filing a brief in opposition to the petition for writ of certiorari is August 14, 2019.
Pursuant to Supreme Court Rule 30.4, I write to request a 36-day extension of time,
to and including September 19, 2019, within which to file a brief in opposition.

This extension is necessary for the following reasons. First, additional counsel will be
participating in drafting and filing the brief in opposition, and more time is required
to adequately prepare the brief and respond to the issues raised. Second, counsel are
currently litigating various matters before this Court, the Tenth Circuit Court of
Appeals, the U.S. District Court, the Colorado Supreme Court, and the Colorado
Court of Appeals. Due to briefing and other deadlines in those matters, counsel
requires the extension to ensure adequate time and attention may be paid to the
issues raised in the petition.

Counsel of record for Petitioner has indicated that Petitioner does not object to the
requested 36-day extension of time.

In compliance with Supreme Court Rule 29, enclosed is a separate proof of service
evidencing service of this letter on counsel for Petitioner.
Thank you for your attention to this matter.

Sincerely,

FOR THE ATTORNEY GENERAL

/s/ L. ana Cooper

L. ANDREW COOPER

Deputy Attorney General

(720) 508-6465

Email: andrew.cooper@coag.gov
Counsel of Record for Respondent
